CERTIFICATE OF WORD COUNT
No. 19-410
In Re Richard J. Fields
Richard J. Fields,
Petitioner,
v.
Diana Palmeri et al.,
Respondents.

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Richard J. Fields Reply
Brief of Petitioner contains 2933 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas'DeDeus
January 2, 2020

SCP Tracking: Fields-2830 Pitkin Avenue-Cover Tan

